U.S. Department of the Interior
Office of Inspector General




        EVALUATION REPORT


      YEAR 2000 READINESS OF
AUTOMATED INFORMATION SYSTEMS AT
    THE U.S. GEOLOGICAL SURVEY

              REPORT NO. 99-I-l 66
                JANUARY 1999
                                                                                  A-IN-GSV-001 -98-R
               United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                         Washington. DC. 20240




                               EVALUATION REPORT
Memorandum

To:        Director, U.S. Geological Survey
                                  /?
From:      Robert J. Williams ’
           Assistant Inspector General for

Subject: Evaluation Report on Year 2000 Readiness of Automated Information Systems at
         the U.S. Geological Survey (NO. 99-I-166)

                                      INTRODUCTION
This report presents the results of our evaluation of the year 2000 (Y2K) readiness of
automated information systems at the U.S. Geological Survey and the Geological Sun-ey’s
Washington Administrative Service Center.’ The objective of our review was to determine
whether the Geological Survey inventoried its automated information systems and identified
those systems that were mission critical and were not Y2K compliant and whether the
Geological Survey and the Service Center (1) developed auditable cost estimates for
renovating systems to be Y2K compliant; (2) identified, by name, individuals responsible
for ensuring that the Geological Survey is Y2K compliant; (3) ensured that responsible
individuals’ annual personnel perfomlance evaluation plans included critical elements related
to identifying and remedying Y2K problems; (4) developed a credible plan that included
milestones and a critical path to ensure that the Geological Survey is Y2K compliant: and
(5) developed a contingency plan that would address the failure of any part of the systems
not being Y2K ready. This review was conducted at the request of the Department of the
Interior’s Chief Information Officer to assist the Information Officer in monitoring the
progress OfDepartmental agencies in ensuring Y2K readiness, implementing Y2K compliant
systems, and validating the accuracy of the information reported by the Departmental
agencies to the Chief Information Officer.




‘Effective October 1. 1998, the Washington Administrative Service Center was transferred from the Geological
Survey to the Department’s Office of the Secretary.
BACKGROUND

The “Y2K problem” is the term used to describe the potential failure of information
technology systems, applications, and hardware related to the change to the year 2000. Many
computer systems that use two digits to keep track of the date will, on January 1, 2000,
recognize “double zero” not as 2000 but as 1900. This could cause computer systems to
stop running or to start generating erroneous data. The problem has been recognized as
nationally significant by the President in Executive Order 13073, issued in February 1998.
The Secretary of the Interior, in a December 1997 memorandum, stated that the Y2K
problem was critical to the Department in meeting its mission and that resolution of the
problem was one of his highest priorities. Further, Office of Management and Budget
Memorandum 98-02, “Progress Reports on Fixing Year 2000 Difficulties,” issued on
January 20, 1998, requires all Federal executive branch agencies to ensure that Federal
Government systems do not fail because of the change to the year 2000 and to have all
systems, applications, and hardware renovated by September 1998, validated by January
1999, and implemented (that is, “fixes to all systems--both mission critical and non-mission
critical”) by March 1999. The Office of Management and Budget, in Memorandum 98-02,
states that it is to provide “information to the Congress and the public as part of its [Office
of Management and Budget’s] quarterly summary reports on agency progress . . . [and] to
report on the status of agency validation and contingency planning efforts and on progress
in fixing. _ equipment that is date sensitive.”

The Department has developed the “Department of the Interior Year 2000 Management
Plan,” which focuses on the resolution of the Y2K problem and provides an overall strategy
for managing Departmental mission-critical systems and infrastructure. The Department has
a multitiered approach to managing the Y2K problem that includes a top tier, which
comprises the Secretary of the Interior; the Information Technology Steering Committee,
which consists of the Chief of Staff and Assistant Secretaries; and the Chief Information
Officer, who is responsible for the Department’s Y2K issues. This tier, which represents
senior-level Departmental managers, provides the Y2K project’s direction and resources and
ensures accurate reporting to external organizations, such as the Office of Management and
Budget and the Congress. A DepartmentwideY2K project team, which reports to the Chief
Information Officer and comprises representatives from each agency and the Office of the
Secretary, was tasked with developing the Department’s “Year 2000 Management Plan,”
refining inventory data on the Department’s mission-critical and information technology
portfolio systems,* and monitoring and reportin g the progress of each conversion. In
                                       3
addition, a Y2K Embedded Microchip Coordinators Team has been established to inventory
and monitor embedded microchip technology YZK problems. The team is led by the Office


*The portfolio is an inventory listing of 13 crosscutting or sensitive systems that are receiving attention at the
Secretarial level.

‘Embedded microchips are “integrated circuits (miniature circuit boards)” that control “electrical devices”
which include “elevators; heating, ventilation, and air conditioning (HVAC) systems; water and gas flow
controllers; aircraft navigational systems: . . medical equipment”; and office devices such as telephones,
facsimile machines, pagers, and cellular telephones. (Department of the Interior’s Office of Managing Risk
and Public Safety “Year 2000 Embedded lkticrochip Hazards” [Web site])

                                                        2
ofManaging Risk and Public Safety and comprises representatives of the eight Departmental
agencies, the Denver Administrative Service Center. and various Departmental offices.

The Department’s August 1998 “Progress Report,” Lvhich was submitted to the Office of
Management and Budget, reported that the Department had 91 mission-critical systems, of
which the U.S. Geological Survey had 13 systems (see the Appendix). In addition, the
Federal Financial System (FFS) and the Interior Department Electronic Acquisition System
(IDEAS), which were maintained by the Service Center, are 2 ofthe Office ofthe Secretary’s
mission-critical systems and are 2 of the Department’s 13 information technology portfolio
systems. To address the Y2K problems, the Geological Survey established the USGS (U.S.
Geological Survey) Millennium Task Force. The structure included an executive Y2K
manager who is the Associate Director for Operations; a Y2K program coordinator; Y2K
coordinators at Geological Survey division offices; and Y2K contacts for telecommunication
infrastructure, embedded technology, and administrative systems. The Service Center also
established a Y2K project management structure that included representatives on the Task
Force.

SCOPE OF EVALUATION

To accomplish our objective, we reviewed the documentation available that supported the
Geological Survey’s information submitted to the Department’s Chief Information Officer
for the June, July, and August “Progress Reports” and the available documentation that
supported the information submitted by the Service Center to the Office of the Secretary for
FFS and IDEAS. We performed our evaluation from June through August 1998 at the
Geological Survey’s National Center located in Reston, Virginia. We interviewed personnel
responsible for project coordination to identify the Geological Survey’s and the Service
Center’s Y2K plans and progress. We also interviewed personnel involved in various
aspects of the Y2K project, including coordination, compliance identification, software
remediation, and project management.

The evaluation was conducted in accordance with the “Quality Standards for Inspections,”
issued by the President’s Council on Integrity and Efficiency, and included such tests and
inspection procedures considered necessary to accomplish the objective. Our conclusions
on the status of the progress made by the Geological Survey in addressing and remediating
Y2K problems were based on reviews of documentation maintained by the Geological
Survey and discussions with the Y2K coordinators throughout the Geological Survey and
with individuals performing remediation or replacement of noncompliant applications or
hardware. Also, our conclusions on the status of the progress made by the Washington
Administrative Service Center were based on reviews of documentation and discussions
withY2K project management and with individuals perfomring testing, remediation, or
replacement of noncompliant applications or hardware. As specifically agreed to in our
discussions with the Department’s Chief Information Officer, we did not validate or certify
that the Geological Survey’s or the Service Center’s systems wereY2K compliant.




                                            3
                        RESULTS OF EVALUATION
Regarding the six areas that the Chief Information Officer requested us to evaluate, we found
that the Geological Survey had completed action for one area but had not completed all
actions for the five remaining areas. Specifically, the Geological Survey had designated
responsible officials but had not completed an inventory of its automated information
systems, developed auditable cost estimates for all of its mission-critical systems, included
critical elements related to identifying and remedying Y2K problems in all responsible
individuals’ annual personnel performance evaluation plans, developed credible plans that
included milestones and critical paths to ensureY2K compliance, and developed contingency
plans that would address any part of the systems not being Y2K ready. As a result, \ve
believe that there is an increased risk that the Geological Survey may not meet the Office
of Management and Budget’s target date of March 1999 for having compliantY2K systems
implemented.

Additionally, ofthe five areas that the Chief Information Officer had requested us to review,
we concluded that the Washington Administrative Service Center had completed the
requirements for four areas and that one area \vas not applicable. Specifically, Service
Center Y2K project management had developed auditable cost estimates and a credible plan,
including milestones where applicable; had completed actions on the designation of
responsible individuals; and had included critical elements related to identifying and
remedying Y2K problems in all responsible individuals’ annual personnel performance
evaluation plans. However, according to Service Center Y2K project management, the
development of a contingency plan for FFS and IDEAS was not needed. As a result of the
progress made by Service Center Y2K project management, we believe that the Service
Center may meet the Office of Management and Budget’s target date of March 1999 for
having compliant Y2K systems implemented provided that the Y2K project proceeds as
scheduled.

The specific actions taken by the Geological Sumey and the Service Center related to each
area and other issues affecting the Geological Survey’s and the Service Center’s Y3K
progress are discussed in the paragraphs that follow.

Automated Information Systems Inventory

The Geological Survey had not performed an inventory of all of its automated information
systems (mission and nonmission critical). According to the Department’s milestone dates,
agencies were required to have mission-critical systems inventoried and systems that were
not Y2K compliant identified by June 1997. Although the Geological Survey reported 13
mission-critical systems, these systems were not identified through a systematic inventory
but had been identified previously by the Geological Survey as mission critical. As a result
of not performing an inventory of all mission- and nonmission-critical systems, the
Geological Survey may have other systems that are mission critical and should have been
reported to the Department’s ChiefInformation Officer and to the Office ofManagement and
Budget. Therefore, we determined that the Geological Survey had not completed this

                                             4
requirement. During meetings with Y2K project management after our fieldwork was
completed, Y2K project management stated that it was continuing its efforts to complete an
inventory of automated information systems.

The Department’s Chief Information Officer requested that we determine the progress of the
Geological Survey in addressing Y2K problems related to telecommunications equipment
and embedded microchips in information systems and facilities. We found that the
Geological Survey, at the time of our review, had begun to inventory and test
telecommunications equipment and to inventory embedded microchips in information
systems, scientific equipment, and facilities. Although Geological Survey Y2K project
management had begun to inventory and test telecommunications equipment, they had not
prepared a comprehensive overview, neither graphic nor in narrative form, of the Geological
Survey’s communications systems.           Without a comprehensive overview of the
communications systems, the risk is increased that a complete inventory may not be
accomplished. We also found that telecommunications equipment for the Department ofthe
Interior Network (DOINET’) had been tested. According to the “DOINET Compliance
Verification Test Results,” the impact on Y2K compliance was “minimal,” and the portions
of the DOINET network tested were found to beY2K compliant, although some anomalies
had occurred.

Auditable Cost Estimates

We found that only 1 of the 13 cost estimates that the Geological Survey had reported to the
Department’s Chief Information Officer in the August 1998 “Progress Report” was auditable.
The revised cost of $74,588 for the Seismic Event Data Analysis System (SEDAS) was
supported by estimates established for each phase ofthe project using a project management
tool and a supportable basis for the estimate. Although this same project management tool
and estimate basis were used to develop revised cost estimates for the Mineral Resource Data
System (MRDS), the Global Seismograph Netivork (GSN), and the U.S. National
Seismograph Network (USNSN) systems, these revised auditable cost estimates were not
reported to the Department’s Chief Information Officer in the August 1998 “Progress
Report.” The documentation to support the reported incurred costs of $14,446 for the
National Coal Resources Data System (NCRDS) u’as not provided. The documentation used
to support the Geological Survey’s cost estimates for correcting theY2K problems in each
of the Geological Survey’s remaining eight mission-critical systems was not maintained;
therefore, these cost estimates were not auditable. Subsequent to our fieldwork. the
Geological Survey provided us with documentation pertaining to Y2K funding requirements
for fiscal year 1999. The documentation identified, by object code, estimated costs for 2 of
the 13 mission-critical systems reported, the GSN and the National Water Information


‘DOWET is a communications network backbone used to communicate between Departmental agencies. A
backbone is the part of the network that handles the major traffic. The backbone employs the highest-speed
transmission paths in the network and may also run the longest distance, generally spanning a large geographic
area. (Department of the Interior’s “Year 2000 Management Plan, ” dated February 1998. and the Computer
Desktop Encvclopedia, Version 9.4,4th quarter, 1996)

                                                      5
System (NW%). However, this documentation did not agree with the amounts reported in
the August 1998 “Progress Report” and did not specifically identify the basis for these
estimates. Consequently, the Geological Survey had not completed this requirement.

We found that the cost estimates developed by the vendor for theY2K effort related to FFS
were auditable and supported. Service Center Y2K project management said that since
IDEAS was Y2K compliant by design, specific Y2K costs were not applicable. Therefore,
the Service Center had completed this requirement.

Designation of Responsible Individuals

Geological Survey documentation identified 15individuals, excluding representatives from
the Washington Administrative Service Center, as responsible for Y2K compliance.
Specifically, we found that the Geological Suney had designated, by name, the Y2K
executive; the Geological Survey Y2K program coordinator; Y2K coordinators in each of
the Geological Survey’s division offices; coordinators for its administrative systems,
telecommunication infrastructure, and embedded technology; and technical managers and
other responsible individuals. Therefore, the Geological Survey had completed this
requirement.

We also found that the Service Center specifically named individuals responsible for FFS
and IDEAS Y2K compliance and had named representatives on the Geological Survey’s
USGS Millennium Task Force. Therefore, the Service Center had completed this
requirement.

Annual Personnel Performance Evaluation Plans

The Secretary of the Interior’s December 1997 memorandum required that “a critical
performance element for identifying and remedying”the Y2K problem be included as part
of each responsible official’s annual personnel performance evaluation plan. Responsible
officials are defined in the memorandum as agency directors, agency Y2K executives,
agency information resources management coordinators, safety officials, and all others as
determined by the Y2K executives. We found that the Geological Survey’s Y2K executive,
the Geological Survey’s Information Resources Management Coordinator, the Y2K program
coordinator, and 8 of the remaining 12 individuals assigned Y2K coordination duties had
elements addressing Y2K objectives in their annual personnel performance evaluation plans.
Subsequent to our fieldwork, Geological Survey Y2K project management provided
documentation indicating that three of the remaining four individuals assigned to the Y2K
project had an element addressing Y2K in their annual personnel performance evaluation
plans. According to Y2K project management, the remaining individual did not have aY2K
objective in the annual personnel performance evaluation plan because the individual had no
direct Y2K involvement. However, documentation provided during our fieldwork indicated
that this individual was part of the Y2K project management team and was specifically
required by the Associate Director of Operations to have a Y2K objective included in the


                                            6
annual personnel perfomlance evaluation plan. Therefore, the Geological Survey had not
completed this requirement.

We found that the four individuals assigned responsibility for the Y2K project at the Service
Center had elements addressing Y2K objectives in their annual personnel performance
evaluation plans. Therefore, the Service Center had completed this requirement.

Plan for Milestones

We found that the Geological Survey had developed credible plans which included
milestones with critical paths for 5 of the 13 mission-critical systems reported as part of the
Geological Survey’s Y2K project. In July 1998, the Geological Survey developed plans to
correct the Y2K problems in five systems: NCRDS. MRDS, USNSN, GSN, and SEDAS.
Although a draft plan, dated July 1998, for the Jfap Catalog (MapCat) System was
developed, the plan did not address the independent v-alidation and verification phase. There
were final plans, developed in July 1998, for the Distributed Ordering Research Reporting
and Accounting Network (DORRAN), the Assignment Management System (AMS), and
the Operational Database (ODB) system, along with a draft plan for the Geographic Names
Information System (GNIS). However, milestones for each of the steps to be performed
were not identified in the plans for these four systems. In addition, we found that plans had
not been formally developed for the Distributed Information System-II (DIS-II), the
Administrative Information System (AIS), and the National Water Information System
(NWIS). Therefore, the Geological Survey had not completed this requirement at the time
of our review. In our November 1998 meeting with Geological Survey officials, Y2K
project management stated that 10 of the 13 systems had been renovated and documentation
had been submitted to the Department for certification. The documentation provided to us
indicated that independent verification and validation had been completed for 5 of the 10
systems. Therefore, because these five systems had undergone independent verification and
validation, we believe that project management plans for these five systems (MapCat,
DORRAN, AMS, ODB, and GNIS) would not be necessary. However, the Geological
Survey had not provided us documentation for the remaining eight systems to support that
the plan would not be necessary.

We found that the Service Center had a credible plan with a critical path to address E’ZK
compliance for FFS. The contractor, which was responsible for remediating FFS, had
provided the Service Center with credible plans and milestones for delivery of the Y2K
compliant version of FFS. In addition, the Department of the Interior’s Software Advisory
Board, which comprises representatives from all Departmental agencies that use and are
responsible for testing and maintaining FFS, had developed target testing and production
installation dates for the Y2K compliant version of FFS. Because Service Center officials
stated that IDEAS was Y2K compliant by design and that the certification of YZK
compliance had been submitted to the Department, a plan was not required. Therefore, the
Service Center had completed this requirement.




                                              7
Contingency Plans

We found that the Geological Survey had contingency plans for 4, including 1 in draft, of the
reported 13 mission-critical systems. However, the contingency plans for the four systems
were not specifically related to Y2K but addressed general information technology disaster
recovery. Therefore, we believe that the plans for the four systems did not address the failure
of the system not being Y2K ready. In addition, the Geological Survey did not develop a
contingency plan for NCRDS because, according to Geologic Division Y2K project
management, this system was compliant and awaiting certification. The Geologic Division’s
Y2K project management also stated that the Geological Survey did not develop a
contingency plan for GSN because a contingency plan vvould be cost prohibitive and thus not
feasible. Instead, the Geologic Division’s master plan for renovation of the GSN included
revised dates based on an accelerated schedule, which required additional resources of
$199,580 to be allocated to the effort. The Department’s August 1998 “Progress Report” to
the Office of Management and Budget stated that the “allocation of additional resources to
accelerate the compliance schedule is being determined.” Since implementation of a
contingency plan is not feasible, we believe that it is critical for the Geological Survey to
address the resource requirement to meet the accelerated schedule to ensure full
implementation of a mission-critical system that is Y2K compliant by March 1999.

According to Water Resources Division Y2K project management, the Geological Suney
had not developed contingency plans for NWIS because the system was planned to be Y2K
compliant and to be fully implemented by September 1998. However, Water Resources
DivisionYZK project management said that they needed an upgrade to the required graphics
software to meet Y2K compliance. The Y2K project management further stated that the
Geological Survey needed a new software program to support the Web interface with the
NWIS but that the software was not expected to be released until December 1998. In our
October 6, 1998, meeting, Y2K project management stated that the upgrade to the graphics
software had been ordered and that reprogramming of the Web interface had been
completed. In our November 4, 1998, meeting, the Water Resources Division Y2K project
management stated that NWIS had been implemented. Therefore, we believe that a
contingency plan would not be necessary for NWIS. The Geological Survey said that it had
not developed formal contingency plans for the remaining six mission-critical systems
because the systems were to be compliant prior to March 1999. Therefore, the Geological
Survey had not completed this requirement.

The Washington Administrative Service Center had not developed contingency plans related
to Y2K for Office of the Secretary systems, which operated on the Geological Survey’s
mainframe. This occurred, according to Service CenterY2K project management, because
contingency planning for FFS was the responsibility ofthe Department’s Office ofFinancial
Management, which is the system owner. Office of the Secretary officials stated that a
contingency plan for FFS was being developed. Further, Service Center Y2K project
management said that contingency planning was not applicable for IDEAS because IDEAS
was Y2K compliant by design. Consequently, the requirement for contingency planning on
the part of the Service Center for Y2K did not apply.

                                              8
Other Issues

We noted other issues that affected the Geological Survey’s and the Service Center’sE’2K
readiness efforts as follows:

        -Data Exchange. The Department ofthe Interior and the Office ofManagement and
Budget required that an inventory of all data exchanges with outside parties be completed
by February 1, 1998, and that coordination with these parties to determine a transition plan
occur by March 1, 1998. We found that the Geological Survey had not completed an
inventory of all of its data exchange partners. For example, the Water Resources Division
Y2K coordinator said that there are more than 1,000 cooperating Federal, state, and local
agencies for the Water Resources Division but that a complete inventory of these exchange
partners was not available. However, of the data exchange partners that were inventoried,
we found documentation to support that those partners were contacted by Division Y2K
coordinators.

The Service Center had identified two interfaces with systems external to the Service Center,
both ofwhich were with other Federal Government entities. The Service CenterY2Kproject
management had contacted the U.S. Treasury, which was one of the interfaces. and
determined that FFS data could be interfaced. The Department’s Federal Personnel Payroll
System, at the Bureau ofReclamation’s Denver Administrative Service Center, \vas the other
interface that had been addressed. Thus, the inventory of data exchange partners was
complete.

         - independent Verification and Validation. According to the Geological Suney’s
Y2K project management, independent verification and validation testing of reno\.ated
mission-critical systems was to be performed internally by Geological Survey staff because
ofthe expertise needed to test the systems. Y2K project management stated that independent
verification and validation testing had begun for all but three ofthe mission-critical systems.

Service Center Y2K project management said that the Service Center was relying on
acceptance testing of the new FFS software release performed internally and on each of the
Departmental agencies to meet the independent v-erification and validation testing
requirements. However, we believe that by relying on acceptance testing and not performing
any type of integrated testing, the Service Center will not be assured that all FFS modules
will function in the year 2000 as designed. Further, \ve found that although the Sen-ice
Center had submitted a request to the Department’s Chief Information Officer to certify
IDEAS Y2K compliance, the software had not been independently verified. Specifically,
the Service Center’s Procurement Systems Branch, which participated in the procurement
ofthe software, tested the IDEAS-Procurement Desktop and the Procurement Desktop \!‘eb
Application. and the developer of IDEAS tested the IDEAS Business Opportunities, which
interfaces with IDEAS. The Department’s independent ~,erification and validation guidelines
dated August 1998 require that mission-critical systems be independently revie\ved, verified,
and validated by individuals who have no part in the development or renovation of the
software. We believe that the independent verification and validation performed b!. the

                                              9
Service Center did not meet the Department’s guidelines. However, Departmental Y2K
project management stated that the testing performed on FFS and IDEAS met the
Department’s independent verification and validation requirement.

        - Mainframe Computer Operating System. The Geological Survey’s mainframe
computer, which is the computer where FFS acceptance testing is to be performed, has the
same operating system as the Denver Administrative Service Center’s mainframe computer
(which is not Y2K compliant and will not be compliant unless more than 100 program
temporary fixes are implemented or the system is upgraded to a newer version of the
operating system). According to Geological SurveyY2K project management, the operating
system was upgraded and implemented in September 1998, and application level testing for
FFS and IDEAS was scheduled for September 25 through December 3 1,1998. However,
if delays are encountered in testing the applications, the Geological Survey should develop
a contingency plan to ensure that the operating system does not adversely affect the
compliant FFS and IDEA systems or other client applications.

During an October 6, 1998, exit conference to discuss a preliminary draft of this report and
a subsequent meeting on November 4, 1998, Geological Survey project management
generally agreed with our evaluation. Based on the actions taken by project management to
address the incomplete areas and on the additional information provided, we made changes
to the report as appropriate and have not made any recommendations.

Since this report does not contain any recommendations, a response is not required.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of personnel at the U.S. Geological Survey’s National Center,
including the Washington Administrative Service Center, in the conduct of our review.




                                             10
                                                                                        APPENDIX
                                                                                         Page 1 of 2



            U.S. GEOLOGICAL SURI’EY hllSSION-CRITICAL
                      SYSTEMS DVEKTORY’

                                                                                         Estimated
    System Name or                                                                        Cost for
       Acronym                                    DescriDtion                           Compliance


Distributed Ordering          This system tracks orders for U.S. Geological               $452,500
Research Reporting &          Survey products by the general public. It
Accounting Network            interfaces with the Federal Financial System.
(DORRAN)

National Coal Resources This system analyzes, distributes, and stores                        10,000
Data System (NCRDS)     data relevant to coal quantity and quality via
                        the Internet.

Mineral Resource Data         This system contains a relational database of                   5,000
System (MRDS)                 mineral deposits throughout the United States.

Seismic Event Data            This alert system allows rapid response to                     74,588
Analysis System               potentially hazardous earthquakes.
(SEDAS)

Global Seismograph            This system collects and provides data from the               192,000
Network (GSN)                 Global Digital Seismic Network to research
                              institutions.

U.S. National                 This system provides national seismic coverage                 10,000
Seismograph Network           for earthquake monitoring, research, and
(USNSN)                       engineering purposes.

Administrative                This system contains the financial and                         20,000
Information System            personnel information database for the Water
(AIS)                         Resources Division.

National Water                This system is a hydrologic database containing               140,000
Information System            all water information collected by the Geological
(NWIS)                        Survey.

Distributed Information Data General Unix systems process the financial                      80,000
System-II (DIS-II)      and personnel information and data from the
                        hydrologic database (NWIS).



*Information is from the Geological Sumey’s Y2K project management as of August 1998.

                                                 11
                                                                         APPENDIX
                                                                          Page 2 of 2

                                                                          Estimated
    System Name or                                                         cost for
       Acronym                           Description                     Compliance


Geographic Names       This system maintains official feature names to        95,000
Information System     support the U.S. Board on Geographic Names.
(GNIS)                 Any date-related functions use ORACLE
                       constructs and are Y2K compliant.

Assignment             This system manages and tracks work                   124,650
Management System      assignments to the organizational elements
@MS)                   within the National Mapping Division.

Map Catalog            This system contains a catalog of all maps             95,000
(MAPCAT) System        distributed by the National Mapping Division.
                       Any date-related functions use Oracle
                       constructs and are Y2K compliant.

Operational Database   This database consists of production status and        95,000
(ODB)                  presents the availability of National Mapping
                       Division products.



      Total                                                              $1.393.738




                                       12
                  ILLEGAL OR WASTEFUL ACTI\‘ITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-5081 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FTSKommerciaI Numbers:
 (202) 208-5300
 TDD (202) 208-2420



1849 C Street, N.W.
Mail Stop 5341
Washington, D.C. 20240
